No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
MANUEL CONTRERAS SAUCEDO,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A

Judgment and Opinion of Fifth Circuit

Appendix B

Judgment and Sentence of the United States District Court for the Northern
District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10655
Summary Calendar

FILED
February 20, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
MANUEL CONTRERAS SAUCEDO,
Defendant-Appellant
Appeals from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CR-604-1
Before JOLLY, JONES, and SOUTHWICK, Circuit Judges.
PER CURIAM: *
Manuel Contreras Saucedo appeals his 36-month, above-guidelines
sentence for illegally reentering the United States after removal. Although
Contreras Saucedo admitted to only two prior removals, the district court
found that he had eight prior removals, and that finding played some part in
the sentence selected by the district court. Citing the rule of Apprendi v. New
Jersey, 530 U.S. 466, 490 (2000), Contreras Saucedo contends that the district

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-10655
court violated his Fifth and Sixth Amendment rights by basing its sentence on
his prior removals. The Government moves for summary affirmance, arguing
that Contreras Saucedo’s argument is foreclosed by United States v. Tuma,
738 F.3d 681 (5th Cir. 2013), and United States v. Bazemore, 839 F.3d 379 (5th
Cir. 2016). Contreras Saucedo contends that the Supreme Court’s decision in
Hurst v. Florida, 136 S. Ct. 616 (2016), calls Tuma into question.
Contreras Saucedo correctly concedes that his argument is foreclosed,
and he raises it only to preserve the issue for future review. See Bazemore,
839 F.3d at 392-93. The Government is “clearly right as a matter of law” such
that “there can be no substantial question as to the outcome of the case.”
Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
Accordingly, the Government’s motion for summary affirmance is
GRANTED, and the judgment of the district court is AFFIRMED.

The

Government’s alternative motion for an extension of time to file a brief is
DENIED.

2

APPENDIX B

Case 3:18-cr-00604-B Document 23 Filed 05/31/19

Page 1 of 4 PageID 62

Case 3:18-cr-00604-B Document 23 Filed 05/31/19

Page 2 of 4 PageID 63

Case 3:18-cr-00604-B Document 23 Filed 05/31/19

Page 3 of 4 PageID 64

Case 3:18-cr-00604-B Document 23 Filed 05/31/19

Page 4 of 4 PageID 65

